<html>
<title> - DOES THE U.S. HAVE A POLICY TOWARD LATIN AMERICA? ASSESSING THE IMPACT TO U.S. INTERESTS AND ALLIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                DOES THE U.S. HAVE A POLICY TOWARD LATIN
                 AMERICA? ASSESSING THE IMPACT TO U.S.
                          INTERESTS AND ALLIES

=======================================================================

         Minus 20 pts for each extra line of title deg.HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2011

                               __________

                           Serial No. 112-23

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
64-549                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aacddac5eac9dfd9dec2cfc6da84c9c5c784">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     CONNIE MACK, Florida, Chairman
MICHAEL T. McCAUL, Texas             ELIOT L. ENGEL, New York
JEAN SCHMIDT, Ohio                   ALBIO SIRES, New Jersey
DAVID RIVERA, Florida                ENI F.H. FALEOMAVAEGA, American 
CHRISTOPHER H. SMITH, New Jersey         Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Arturo Valenzuela, Assistant Secretary of State, 
  Bureau of Western Hemisphere Affairs, U.S. Department of State.    11

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Arturo Valenzuela: Prepared statement..............    14

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on the Western 
  Hemisphere:
  Prepared statement.............................................    53
  Questions for the record submitted to the Honorable Arturo 
    Valenzuela...................................................    55


DOES THE U.S. HAVE A POLICY TOWARD LATIN AMERICA? ASSESSING THE IMPACT 
                      TO U.S. INTERESTS AND ALLIES

                              ----------                              


                       TUESDAY, FEBRUARY 15, 2011

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:24 p.m., in 
room 2172 Rayburn House Office Building, Hon. Connie Mack 
(chairman of the subcommittee) presiding.
    Mr. Mack. The subcommittee will come to order. I first want 
to thank everyone, especially our witness, Assistant Secretary 
Valenzuela, for joining us for the first of many hearings from 
the Western Hemisphere Subcommittee. After recognizing myself 
and the ranking member, Mr. Engel, for 7 minutes each for our 
opening statement, I will recognize the members of the 
subcommittee for 5 minutes each for their opening statements. 
We will then proceed directly to hearing testimony from our 
distinguished witness. The full text of the written testimony 
will be inserted into the record, without objection, members 
may have 5 days to submit statements and questions for the 
record.
    After we hear from our witness, individual members will be 
recognized for 5 minutes each to question our witness. First, 
if I could take a moment, I want to thank all of you for being 
here today and especially thank my good friend, Mr. Engel, who 
I look forward to working with in a bipartisan way as much as 
we can. We share a lot of the same goals and interests in the 
Western Hemisphere. We may disagree occasionally on how we get 
there, but we have a great working relationship and I look 
forward to that continuing and I look forward to working with 
you.
    I now recognize myself for 7 minutes. President Santos of 
Colombia, a long-time ally of the United States, recently 
referred to a quote by Henry Kissinger, saying, ``To be an 
enemy of the United States is bad, but to be a friend is 
fatal.'' Given that there is neither a strategic nor reliable 
policy coming from the administration toward the region, I can 
understand the frustration of President Santos and our allies 
in the region. It is my goal to show the entire Western 
Hemisphere that it is better to be a friend of the United 
States than to be an enemy. We will focus on various countries, 
key threats, and opportunities from within our hemisphere 
throughout my tenure as chair. Many of which will be addressed 
at future hearings.
    Today, however, I want to get to the bottom of key issues, 
where U.S. policies have failed both U.S. citizens and 
important U.S. allies in the region. Regarding the Free Trade 
Agreements, the administration's lack of action is killing U.S. 
jobs. The failure to move forward on our promises is hurting 
important allies in the region. I want to know the exact 
benchmarks for the Panama and Colombia Free Trade Agreements 
and when the President will send them for a vote.
    Colombia was signed on November 22, 2006 and then 
renegotiated to include more stringent environmental and labor 
standards. It was signed again on May 10, 2007. Panama was 
signed on June 28, 2007, and South Korea on June 30, 2007, with 
a renegotiated version signed last December. I want to warn the 
administration that they should send these agreements up in the 
order that they were signed to ensure the swift passage of each 
of the agreements.
    Regarding Honduras, the Assistant Secretary and the 
Secretary, for that matter, are very familiar with my position. 
Honduras has been a great ally of the United States. The 
Hondurans managed to escape the target placed on their country 
by Chavez when the Honduran Supreme Court and Congress legally 
removed Zelaya from power. And the U.S. administration has been 
punishing them ever since. I want to know when the visas that 
were revoked over the past 1\1/2\ years will be approved for 
reapplication and at which board meeting this year the MCC will 
provide Hondurans with their next compact.
    The fact that Nicaragua, a nation ruled by a corrupt 
dictator that invaded Costa Rica is still receiving MCC funds 
while Honduras was cut off is a disgrace. Current U.S. policies 
are weakening Honduran governance and democracy, negatively 
impacting the Central America region and harming U.S. 
interests.
    Regarding Venezuela, Hugo Chavez is in violation of U.S. 
sanctions on Iran, actively supporting terrorist organizations, 
working directly counter to democracy and freedom in Venezuela 
and the region, and aggressively opposing U.S. interests. We 
need to stand with the Venezuelan people who are fighting daily 
for their freedom and make it clear to Chavez that like other 
dictators around the world, that he does not get a free ride. 
One place to start is the Keystone XL pipeline. Exports of 
Venezuelan heavy crude to the United States are Chavez's main 
source of income. Without them, he may have to learn to be more 
responsive to the needs of Venezuelans. The State Department 
must approve the Presidential Permit for the pipeline as soon 
as possible to cut our reliance on Venezuela oil. Regarding 
Cuba, it is in the U.S. interest to maintain a hard line 
against dictators who are committed to violating human rights.
    Last month, the administration further loosened travel and 
remittance restrictions on Cuba allowing more money to flow to 
that country. Shortly thereafter, Cuban officials announced 
they are seeking a 20-year sentence for a USAID contractor, 
Alan Gross. Case in point, rewarding dictators only hurts U.S. 
interests. Additionally, by sending the wrong message on Cuba, 
we could soon see a relationship between Venezuela and Iran 
that is starkly similar to one pursued by Russia and Cuba.
    I believe we are much closer to this reality than the 
administration is willing to admit. Before providing the 
Castros with any reward, we need to see real democratic reform. 
These include free and fair elections, the release of all 
political prisoners and a free and independent press that is 
allowed to operate without fear of oppression or violence. 
Additionally, regarding Mexico, while the administration has 
made trips to Mexico and we have funded the Merida Initiative 
over the past 3 years, it isn't enough. I will be concentrating 
the time and energy of this subcommittee on determining where a 
proactive approach from the U.S. can be most effective in 
fighting the deadly path of the drug trade. To start, we need 
to double border patrol agents from 20,000 to 40,000 while 
fully funding needed border protection equipment. This should 
include additional unmanned aerial vehicles and the completion 
of the security fence in urban hard-to-enforce areas of the 
border.
    We also need to utilize the full resources of the U.S. 
intelligence community aligned to the mission, while 
coordinating closely with Mexico to ensure swift justice on 
both sides of the border. A central piece of the strategy 
includes a focus on governance reform, economic development, 
community stabilization, and ensuring access to essential 
services. We must stop the drug trafficking organizations and 
illegal armed groups that threaten the security of Mexico, the 
United States, and beyond.
    In conclusion, policies of shaking hands with our enemies 
while ignoring our friends is making us neither a force to be 
reckoned with nor a friend of value. You can rely on me to 
engage the administration on a very regular basis to ensure we 
develop a strategic relationship toward Latin America. This is 
the only way to ensure freedom, security and prosperity for the 
United States and our allies. I now would like to recognize the 
ranking member, Mr. Engel for his opening statement.
    Mr. Engel. Thank you very much. Mr. Chairman, it is going 
to take some getting used to because for the last 2 years, our 
roles were reversed with myself as chairman and Mr. Mack as 
ranking member. But during those 2 years, we worked very 
closely together and I believe share a very similar vision of 
what needs to be done in the Western Hemisphere. And I look 
forward to working with Mr. Mack in his role as chairman and I 
am glad that we are working together again.
    Mr. Mack cares deeply about the Western Hemisphere and I 
wish him well as he assumes the gavel and I was particularly 
impressed that he gave himself 7 minutes and there are only 
about 9 seconds left over when you finished your remarks. So 
that was pretty good, Connie. As the leaders of our country 
look around the world and analyze the challenges our Nation 
faces, they often point to the never ending array of crises in 
the Middle East, Asia, or elsewhere. While those areas receive 
the most attention from the world's media, they are certainly 
no more important to the United States' national interest than 
what happens in Latin America. This is the Subcommittee on the 
Western Hemisphere. We are in the Western Hemisphere and 
obviously the Latin American and Caribbean countries are also 
in the Western Hemisphere, so the United States is 
geographically close to Latin America and the Caribbean, 
millions of recent immigrants are from this region, most of our 
imported energy is from Canada and other countries in the 
hemisphere. In fact, from illicit narcotics to cultural 
influences, to so many other areas, the Western Hemisphere 
remains crucial to the United States.
    That is why I am glad that next month President Obama will 
travel to Brazil, Chile and El Salvador. These visits will help 
demonstrate that the administration sees our region as vitally 
important to the United States. His very first stop, Brazil, 
is, in so many ways, like the United States. It is a very 
large, very diverse democracy. I have long been of the belief 
that U.S. and Brazilian interests converge on a wide array of 
issues. And frankly, I was disappointed with some of the 
choices of the Lula government which led to a cooling of our 
relations.
    However, there are already signs that under the new 
government of Dilma Rousseff, U.S.-Brazilian relations are on 
the mend. I hope that continues. It is very encouraging. Chile 
will be the second stop on President Obama's regional 
excursion. 2010 was quite a year for Chile. They experienced a 
terrible earthquake from which Chile is still rebuilding and 
lived through a mine cave-in from which the miners emerged 
almost miraculously after more than 2 months under ground. Our 
relationship with Chile is already quite close and mature and 
the President's visit can only further solidify these strong 
bonds.
    Finally, President Obama will stop in El Salvador, a key 
country in Central America. In the 1980s, El Salvador was the 
site of a terrible civil war, but today that fight has long 
ended and the Salvadoran people live in a democracy. However, 
significant challenges still face El Salvador. Drug 
trafficking, criminal gangs, high unemployment and a soaring 
murder rate make life in El Salvador difficult. President Funes 
is charting a center left course and in the face of pressure, 
wants to continue historically close ties with the United 
States. I was at his inauguration and I am glad the President, 
our President, will be there to support him.
    I wanted to also comment on Honduras, which Mr. Mack 
commented on. I feel very strongly, as he does, that Honduras 
and the United States need to work closely together. And I feel 
very strongly that the OAS owe it to stop putting Honduras on a 
list where it doesn't accord it correct recognition while at 
the same time other governments in the region which are much 
more questionable are welcome to the OAS as full fledged 
members.
    So not only am I ranking member of this subcommittee, but I 
also represent large populations of people whose heritage is in 
Latin America and the Caribbean in my New York congressional 
district. Spring Valley in Rockland County is home to many 
Haitians and Haitian Americans. They were and are profoundly 
affected by the cataclysmic earthquake which struck Haiti. I 
have been proud to support them as they seek to support their 
loved ones. It is critical that our subcommittee stays focused 
on rebuilding Haiti in the weeks and months ahead.
    We also need to follow the issues in Cuba. I have long been 
critical of the Castro regime and the fact that they do not 
have--permit political pluralism whatsoever in Cuba. I think 
that we need to continue the pressure on Cuba to make sure it 
democratizes and that the democracy which we have seen the 
Egyptian people clamor for can also happen to the Cuban people. 
Every day, stories fill our newspapers and TV about the horrors 
which drug criminals are inflicting upon Mexico and Central 
America. While every circumstance stands on its own, we have 
seen this before and we know that a country which stands up to 
the traffickers can emerge even stronger.
    After more than a decade of murders, kidnappings and war, 
our ally, Colombia, finally has gotten the upper hand against 
the FARC, while the acreage under cocoa cultivation has dropped 
substantially. President Santos, we attended his inauguration 
as well. And we were proud to work with him as well as former 
President Uribe. President Santos is working today to help 
Colombia's dispossessed, its Afro-Colombian population and 
others facing challenges. And he and Colombia deserve the 
strong support of the United States.
    I must say, however, how disappointed I am that the 
majority allowed the Andean Trade Preferences to expire on 
Saturday. ATPDEA is critical to our friends in Colombia and we 
shouldn't delay it any further. We should extend it. As we work 
with Colombia, we must work with Mexico and the countries of 
Central America to strengthen security forces and enhance 
justice systems. These countries are facing a difficult 
challenge and they deserve our backing.
    At the same time, there is more we can do here at home to 
help our neighbors fight narco crime. We should tighten up at 
the borders, slow gun trafficking and do more to reduce demand 
for illegal drugs. Four years ago when I just started as 
chairman of this subcommittee, one thing quickly became clear 
to me, we had multiple programs to help fight narco trafficking 
but they were not integrated. When I raised this with the State 
Department, it was never clear who was in charge or how the 
efforts were integrated. I inserted language and the House 
passed Merida legislation to create a security coordinator to 
oversee and make sure our efforts meshed.
    One year ago, Chairman Mack and I met with Secretary of 
State Clinton and urged her to create the security coordinator 
for the Western Hemisphere which I had proposed. I am looking 
forward to Secretary Valenzuela's testimony today and hope that 
he might discuss this important issue. Again, I would like to 
wish my good friend, Connie Mack, the best of luck as he begins 
his term as chairman. I offer him all of my support and I look 
forward to continuing our close collaboration in this 
subcommittee. Thank you. And, Mr. Chairman, you did a better 
job than me because I am 28 seconds over.
    Mr. Mack. As we all know, that is pretty good for you. Just 
kidding. Thank you. Now, I would like to recognize the vice 
chair of the subcommittee, the member from Texas, Mr. McCaul 
for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman. And I am honored to 
serve as a vice chair of this subcommittee. I guess you can say 
I am your right-hand man on this issue. Secretary, thank you 
for being here today. And being from Texas, Mexico and Latin 
America are very important to my constituents and to me. And 
the issues I think have been covered very well by the chair and 
ranking member. It is clearly the Free Trade Agreements that I 
think I am interested in hearing the administration's position 
in terms of pushing that forward, the threat, the concern of 
Venezuela and Hugo Chavez, their connection to Iran continues 
to be of grave concern. I think the chair mentioned Cuba. We 
have an American who has been in prison, I think, for over a 
year--well over a year, Alan Gross. And I know the charges were 
just recently brought and I would be very interested in what 
the administration is doing to address that, what I consider to 
be a human rights violation. And then finally, the border is, 
certainly anyone from a border state, it is one of the biggest 
issues back home. Over 30,000 people have died at the hands of 
the drug cartels since President Calderon's war began and we 
overlook that fact. We talk a lot about Iraq and Afghanistan, 
but more people have died than Americans in those 2 wars. So 
the Merida Initiative is very important. The ranking member 
when he was chairman I think did an outstanding job pushing 
that very important initiative through. I met with President 
Calderon many years ago and he was pushing us to adopt the 
Merida Initiative as a showing of support, as solidarity with 
him. And I am pleased that we got that through. However, the 
funding has been bottlenecked at the State Department. I think 
$1.3 billion was appropriated and yet a very small amount of 
that has actually made it through to Mexico. So these are all 
very, very important issues that I look forward to hearing the 
testimony here today. And with that, I yield back.
    Mr. Mack. Thank you. Now I would like to recognize Mr. F. I 
can say that because my last name is McGillicutty and it is not 
always easy to pronounce.
    Mr. Faleomavaega. That is alright, Mr. Chairman. If I can 
pronounce Valenzuela, I should also be able to pronounce 
Faleomavaega.
    Mr. Mack. You are recognized for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I do want to 
thank you not only for obtaining the chairmanship for this very 
important subcommittee, but also thanking our ranking member, 
Mr. Engel, who has previously served as chairman of the 
subcommittee. I do want to associate myself with the statements 
made by you, Mr. Chairman, our ranking member, expressing some 
very serious concerns as to the issues confronting the Western 
Hemisphere. I want to thank Secretary Valenzuela for coming 
before our subcommittee. And having a chance to review his 
statement, I thought it was very comprehensive and certainly an 
indication also of the commitment of the Obama administration 
toward this important region of the world.
    The only thing I want to share with Secretary Valenzuela in 
reviewing your statement, sir, there is not one thing 
mentioning about the millions, or shall I say, the plight, the 
sufferings of the millions and millions of indigenous people 
who live throughout Latin America, including Canada. The 
indigenous of Canada and the people living in this important 
region, there is not one mention of your statement concerning 
the needs, economic, social, you call it whatever. But the 
indigenous people living in these regions.
    Mr. Secretary, I say we definitely need to pay more 
attention. I sincerely hope the Obama administration will focus 
on the needs of these people. One particular area that I do 
want to bring to the attention of Secretary Valenzuela, is 
Chile. Now, I know that the world has given rise in not only 
recognizing but also in congratulating the leaders of the 
people of Chile, what happened with the 33 miners who suffered 
tremendously and their being able to be saved from this 
catastrophe that occurred last month I believe as it was in 
Chile.
    But, Mr. Secretary, I wanted to share with you--I sent a 
letter to your office about the plight of the people of Easter 
Island. There is a crisis brewing there on Easter Island, or as 
the native people call it, Rapa Nui. There is presence of the 
military of Chile there forcing the people away from their 
ancestral land rights, to their lands and tremendous, 
tremendous problems. I have sent a letter even to the 
Ambassador of Chile, Mr. Arturo. I have not had even the 
courtesy of a call or a response from the Chilean Embassy. I 
hope somebody from the Chilean Embassy is here in this hearing. 
Not even a courtesy call to just say, hey, we got your note, 
let us talk about it. Not even a message from the Ambassador of 
Chile to the United States concerning the problems that we are 
faced with on Easter Island.
    Senator Akaka and I have also written to President Pinera 
expressing our serious concerns about the presence of the 
military of Chile on this little island, 2,300 miles away from 
Chile. Seventeen million Chileans, as opposed to 2,500 Rapa 
Nuis or Easter Islanders, living on this isolated island. And I 
must say, Mr. Secretary, they are not treated very decently as 
far as I am concerned as some sense of decency on how these 
people should be treated.
    And I sincerely hope your office will get back to me on 
this so that we can follow up on this. And I will elaborate on 
it a little later during the course of the hearing. But I will 
want to say that I am putting out a little olive branch to the 
leaders of Chile to let us work together in taking care of 
addressing the serious needs of the people of Easter Island. I 
know it is not as important as Egypt or all these other regions 
of the world, but I think the world has caught the attention of 
these people being able to build these statutes, stone statues, 
weighing millions of thousands of tons and their culture. And I 
am disappointed in the way the Chilean Government has treated 
these people. And I am going to be asking the Secretary some 
more questions on this. Mr. Chairman, thank you. My time is 
about to be up and thank you for the time.
    Mr. Mack. I thank the gentleman. Next is Congresswoman Jean 
Schmidt from Ohio, who is new to the committee. And we welcome 
you to the committee and I know you have done a lot of 
travelling and are passionate about the Western Hemisphere. So 
we appreciate you being here and you are recognized for 5 
minutes.
    Mrs. Schmidt. Thank you, Mr. Chairman. And thank you 
Ranking Member Engel for holding this very important and timely 
meeting. And I do want to express my thanks because before I 
became a member of this committee, you afforded me an 
opportunity to travel into the area and back home in 
Cincinnati. In the second district, we have a lot of economic 
interests in the Western Hemisphere. I would also like to thank 
the Assistant Secretary for being here to address our 
subcommittee today. Many key issues will be addressed, but I 
really want to focus on one and that is Colombia. Colombia has 
been a strategic ally in Latin America for well over a decade. 
Since the establishment of Plan Colombia in 1999, the United 
States and Colombia worked closely to combat drug trafficking 
and terrorism in the region. Efforts by successive Colombian 
governments have resulted in a dramatically improved economy 
and security situation. Under President Uribe, rates in 
Colombia for murder, inflation, unemployment and poverty fell 
dramatically, while economic growth, exports and investments 
flourished. President Juan Manuel Santos, who I was afforded 
the opportunity to see sworn in, has built upon the success of 
President Uribe and the economic and security situation in 
Colombia continues to improve.
    In addition to the improved economic and security 
situation, President Santos has vigorously pursued dramatic and 
social reforms. Under his administration, the Victims and Lands 
Restitution Act was passed. This Act assists victims of 
guerilla and paramilitary violence and coercion and provides an 
indemnity to victims of state security forces. President Santos 
is also working to address and protect labor rights and 
activists. He has pledged to review homicide cases against 
labor activists. He is in the process of establishing an 
independent labor ministry and he is committed to additional 
government resources to protect journalists, labor leaders and 
human rights defenders. Despite these efforts, opponents of the 
Colombian Free Trade Agreement argue that labor unionists in 
Colombia continue to face violence and intimidation and that 
the Colombian Government has failed to adequately protect the 
rights of workers to unionize and collectively bargain. And the 
Obama administration unfortunately appears to be bowing to this 
pressure and has thus far refused to send the Colombian Trade 
Agreement to Congress.
    In my view, this is a slap in the face to the Colombian 
people. The Obama administration claims it wants to double 
export efforts within 5 year, yet it refuses to seriously 
consider a Free Trade Agreement with arguably our strongest 
ally in the region. I believe this policy undermines our 
credibility in the region and it will ultimately result in a 
diminished ability of the United States to exert influence in 
our own hemisphere. And I would like to add that the economic 
interests in my district and Colombia are very, very strong.
    Three of my major corporations have very, very strong ties 
with Colombia. So this Trade Agreement is important to the 
United States, as well as to the citizens of Colombia. I would 
sincerely appreciate if the Assistant Secretary addressed these 
concerns in your testimony, sir, and I yield back the balance 
of my time.
    Mr. Mack. Thank you very much. Mr. Payne is recognized for 
5 minutes for an opening statement.
    Mr. Payne. Thank you. Thank you very much. And let me say 
that it is a pleasure to be a member of this subcommittee again 
and I look forward to working with you in your new leadership 
position. I know that you have the interests and the will, and 
so we look forward to having a good working relationship. Let 
me just say that I think that Latin America, as I have said for 
20-some years I have been in Congress, it seems that we have 
lacked what I think is a very aggressive policy.
    During the 1960s, under the Kennedy administration probably 
is where the most attention was given to Latin America and we 
had programs that really kind of tied us together. Since then, 
we have seen a lack of affirmative programming in my opinion, 
and as a result, I think we have seen that many countries have 
elected leaders that have different opinions than what we have. 
I think that it is primarily because we have lacked the 
attention that we should have given to our neighbors to the 
south.
    Having said that, of course, we do have important interests 
in Latin America. I think that our State Department could also 
do a better job, as my friend mentioned, about the indigenous 
people and people of African descent where there are many, 
many, in Latin America. For example, 2011 will mark the 
international year for people of African descent, and I wonder 
whether it would be a wise thing for our Embassies and 
countries in Latin America to have an evening of the 
international year of people of African descent.
    I think that would show many people who are depressed in 
their country that the U.S. have an interest in them as well as 
our relationships with the leadership of the country. I 
understand that funding for State Department's race, ethnicity 
and social inclusion unit, which administers the Brazil and 
Colombian joint action plans on racial equality and other 
initiatives that strengthen minority inclusion in democracies 
throughout the region, the funding is going to dry up.
    And once again, I think that it would be an opportunity for 
us to show that we do have an interest where we have seen 
changes and many of the countries, Brazil in particular, 
Colombia has made some steps in the right direction as it 
relates to minorities. But we still have the problem of whether 
Colombia, as we say, they are a great ally. However, 2,800 
union leaders have been killed in Colombia over the past 20 
years or so. Very few of the cases have been solved. So 
although we embrace the government, we still have to be 
concerned about workers' rights and the rights of indigenous 
people. As a matter of fact, Colombia has the largest number of 
displaced people, second largest number in the world because of 
the various activities.
    So although I hear our pleas for the Colombia Free Trade 
Agreement and I do think Colombia has made some steps in the 
right direction, I think that more can be done and hopefully 
the new administration and Colombia will make strides to 
improve the relationships. I think that Brazil is doing an 
outstanding job. They have shown how they have become 
independent of foreign oil. I wish we could study what they 
have done and perhaps we could be less dependent on the lease 
oil, which could kind of stop the transfer of our finances, but 
secondly, not have us dependent on despots and dictators in the 
Middle East as we see it is a fragile area, what happened in 
Egypt and Tunisia and Algeria starting to perk up, we need to 
be concerned that we don't allow the same things to happen in 
our neighbors to the south. It is very important to us, and I 
certainly look forward to working with the administration in 
the future. Thank you very much. I yield back my last second.
    Mr. Mack. Thank you, Mr. Payne. And it is great to have you 
on the committee, and I look forward to working with you as 
well. Mr. Rivera from Miami, new to the committee, new Member 
in Congress. Welcome. And you are recognized for 5 minutes.
    Mr. Rivera. Thank you, Chairman. Thank you, Mr. Secretary, 
for attending today's hearing. I am deeply concerned with our 
current administration's policy and attitude toward Latin 
America over the past few years. It seems that our foreign 
policy in the region has been aimed at improving relations with 
our enemies instead of supporting our friends and allies in 
Latin America. For example, the recent decision by the Obama 
administration to make changes to regulations relating to 
travel to Cuba is nothing short of a unilateral concession to a 
dictatorship that continues to oppress its people. I know the 
administration believes these actions are an important step in 
reaching the widely shared goal of a Cuba that respects the 
basic rights of all its citizens, but I couldn't disagree more. 
This loosening of regulations is a concession that does nothing 
to solve the fundamental problems on the island.
    Instead of seeking change from the Cuban dictatorship with 
regard to human rights and free and open democratic elections, 
before entering into any kind of compromise, this policy sends 
a message that the Cuban dictatorship does not have to reform 
before being rewarded by the United States. This policy will 
not lead to a better quality of life for the Cuban people or 
help grant them the freedoms that they so desperately need and 
want. It only serves to enrich the Cuban dictatorship. In 
addition, there have been reports from Cuban state-controlled 
media that Cuban prosecutors are seeking a 20-year jail term 
for American contractor Alan Gross.
    Gross, an American citizen, has been imprisoned by the 
Castro dictatorship without access to legal representation or a 
proper trial since December 2009 when he was on the island 
providing humanitarian assistance to Jewish groups. While this 
administration continues to ease sanctions on Cuba, the Castro 
dictatorship responds by seeking unjustifiably harsh penalties 
against an American citizen. The situation with Alan Gross 
demonstrates the futility of making unilateral concessions to 
the Castro dictatorship and shows that the Castro regime has no 
respect for civil liberties, human rights or due process of 
law.
    I believe the administration needs to immediately rescind 
its recent decision lifting sanctions on the Castro 
dictatorship in response to this unwarranted action against an 
American citizen. Furthermore, our best ally in Latin America 
has been Colombia. Colombia's efforts in fighting the drug 
trade and terrorist organizations should be an example to the 
world. Colombia also has the potential of being one of 
America's best economic engines. In his 2011 State of the Union 
speech, President Obama cited the need for deals that keep 
faith with American workers and promote American jobs. The 
Colombia Free Trade Agreement would help him reach these goals. 
The agreement would slash Colombian tariffs for U.S. goods, 
increase American exports to Colombia by approximately $1.1 
billion and increase U.S. GDP by $2.5 billion.
    As many have stated, delaying the Colombia Free Trade 
Agreement is destroying jobs in America. This agreement has 
received strong bipartisan support from leaders in both 
parties. We must come together, pass this agreement and show 
our neighbors in the region that democracy leads to prosperity. 
Finally, Venezuela is another example of this administration 
ignoring major threats in the region. Iran continues to have a 
close relationship with Hugo Chavez. Iran is an official 
Sponsor of State Terrorism as designated by our own Government. 
Should this not be a concern for the administration? In our own 
backyard, we have two of our prime enemies working together on 
ways to cause harm to our Nation and our allies such as perhaps 
a terror attack in this hemisphere.
    Already, two have been stopped: One of the U.S. Embassy in 
Santiago. And another to the President of Panama. The U.S. 
Embassy in Caracas was also closed this month due to a threat 
from Al Qaeda. Cuba works with Chavez and Chavez works closely 
with Iran. I look forward to hearing your testimony on how the 
administration plans on tackling these growing issues of 
concern to our national security. I yield back the balance of 
my time, Mr. Chairman.
    Mr. Mack. Thank you, Mr. Rivera. And thank you, Mr. 
Valenzuela, for sitting through and letting us tell you some of 
the issues that we have. We look forward to your testimony. I 
think my staff prepared a nice introduction, but I think we all 
know who you are and your background. We are pleased that you 
are here today. We look forward to your testimony and your 
answer to questions. But most importantly, the committee looks 
forward to working with you and the administration on finding 
common ground and where we have disagreements we look forward 
to having a dialogue about those disagreements with seeing if 
we can't find some solutions. So with that, you are recognized 
for 5 minutes for your testimony.

    STATEMENT OF THE HONORABLE ARTURO VALENZUELA, ASSISTANT 
SECRETARY OF STATE, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Valenzuela. Mr. Chairman and members of the committee, 
I wanted to thank you for this opportunity to testify before 
you today and for the level of interest that this committee has 
shown now for some time to the issues of the Western Hemisphere 
and U.S. policy therein. I also want to congratulate you on 
your assignment as chairman of this committee, Mr. Chairman.
    In addition, I would like to note that I have submitted a 
longer statement to be entered into the Congressional Record. I 
will take this opportunity to highlight the main points of my 
main remarks and then I will be happy to answer your questions.
    Mr. Chairman, I am pleased to tell you that this 
administration is deeply engaged in the Americas. I note that 
the title of this hearing asks a rather provocative policy 
toward Latin America. Rather than leave the committee in 
suspense, allow me to begin with the answer yes, we do. And 
since our earliest days in office, the Obama administration has 
been working very hard to safeguard democratic values, promote 
economic opportunity, strengthen regional security and advance 
U.S. interests. We strongly believe that the United States has 
important national interests at stake in the Western Hemisphere 
and that the best way to advance these interests is through a 
proactive engagement with all of the countries of the Americas. 
That is why Secretary Clinton has traveled to the region more 
frequently than any other Secretary of State in modern American 
history, and that is why President Obama chose to use the State 
of the Union address to announce his forthcoming trip to 
Brazil, Chile and El Salvador.
    We believe that the United States has a vital stake in the 
success of Latin America and Central America and the countries 
of the Americas and that a U.S. policy that contributes to that 
success will benefit all the people of the Americas, including 
the citizens of the United States.
    We also know that Latin America's future depends on the 
consolidation of vibrant democratic institutions that are 
responsive to their citizens and capable of expanding the 
boundaries of freedom, creating greater social prosperity, 
unlocking the economic potential of markets and deepening the 
rule of law. Today we are very optimistic about the state of 
the hemisphere.
    In my 51 trips to 23 hemispheric countries as Assistant 
Secretary, I have witnessed the convergence of two powerful 
positive trends, the consolidation of successful market 
democracies that are making big strides in meeting their 
people's needs and the growing global integration of Latin 
America. The greatest regional challenges, including 
inequality, the impunity of power, lack of rights, ineffective 
institutions, lack of opportunity are receding in most 
countries in the Americas and nations of the hemisphere are 
realizing their stake in global issues, like food security, 
climate change, transnational crime and economic 
competitiveness. We recognize that achieving our goals will 
require building stronger institutions of democratic 
governance, their respect for human rights.
    In 2011, several Latin American and Caribbean countries 
will hold Presidential elections. We are always welcoming of 
elections that are credible expressions of the popular will and 
we encourage all countries to facilitate domestic and 
international observation and to establish mechanisms capable 
of mitigating disputes that may arise through the electoral 
process.
    Given a new spirit of international partnership is 
especially important at a time when we face a constrained 
budget environment. Now more than ever, our budget choices must 
be strategic and we must align limited funding resources to the 
areas where our resources can make a critical difference. The 
President's 2012 foreign assistance request for the Western 
Hemisphere includes funding for critical citizen safety 
programs to support the hemisphere's ability to combat drug 
trafficking and transnational crime. These threats to the rule 
of law in Latin America also threaten U.S. national security 
and strengthening the region's capacity to combat them is in 
our national interest. To achieve these goals, we support full 
funding from Congress for the Merida Initiative, with Mexico 
and Central American Regional Security Initiative and the 
Caribbean Basin and Security Initiative.
    In Colombia, full funding is key to firmly securing the 
country's democratic and security gains of recent years. We 
appreciate the efforts of Congressman Engel and Congressman 
Mack to help us concentrate our efforts more effectively in the 
security assistance and look forward to ways in which we might 
be able to roll out the idea of having a better coordination of 
this process.
    Mr. Chairman, I am sure that you have questions about 
specific aspects of our policies, especially as it relates to 
our bilateral relations. During the question period, I will be 
more than happy to address the strong partnership for us with 
respect to Mexico, Brazil, Colombia, Chile, Peru and the 
Caribbean, as well as to discuss our bilateral relationships 
that have been more challenging. And you have alluded to some 
of those. In conclusion, let me say that the Obama 
administration's Latin America policy is informed, engaged, 
dynamic and collaborative and optimistic about what the future 
will hold for the countries of the Americas. And I thank you 
for your attention.
    [The prepared statement of Mr. Valenzuela follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Mack. Thank you very much. This is the first hearing of 
the subcommittee. And we really want to kind of get at the idea 
of do we have a policy, and as you say in your opening 
statement, yes, then help us understand it because there is a 
lot of contradiction out there, and I think the main problem I 
am having is we appear to be supporting our enemies and kind of 
turning our back on our allies. I don't know how, and maybe you 
can answer this question, how can we deny Honduras a compact 
with the MCC but then allow the money to keep flowing to 
Nicaragua? I don't know--it is a pretty stark difference. 
Honduras has been an ally and a friend. Nicaragua is invading 
other countries. And so I think there is a disparity there that 
needs some explaining. I would also suggest that again in Cuba, 
we relax travel and remittance restrictions, and then Cuba 
turns around and is talking about a 20-year sentence on a 
USAID, Alan Gross.
    So it seems like our foreign policy is not headed in the 
right direction in Latin America. If we want to show the people 
of Latin America that we support them and that there is value 
in being a friend to America, then the Free Trade Agreements 
must be sent to the Congress immediately for passage. If we 
want to show that there is value in being a friend to the 
United States and an ally, then the MCC compact with Honduras 
needs to move forward immediately. We cannot continue to have 
this kind of mixed messages to the folks of Latin America. So 
if you would like to respond to any of that.
    Mr. Valenzuela. Sure, Mr. Chairman. Thanks very much for 
that. Look, I think that the fundamental starting premise is 
that it is in our fundamental interest to have successful 
governments and successful societies in the Western Hemisphere. 
And that is what we are striving for. And what we see now is a 
situation as I alluded to in my testimony where we have 
overcome many of the difficulties of the past.
    It wasn't that long ago that most of the countries in the 
region were under authoritarian regimes. Only three avoided 
those during the 1960s, 1970s and 1980s, authoritarianism. We 
had civil conflicts in Central America. Today, in fact, as my 
testimony suggested, the countries of the Americas are 
weathering well to financial crisis today. They are growing, 
they are improving their societies.
    There are some significant challenges and we agree about 
that. And there are some countries that oppose specific 
challenges. I am happy to address that more specifically as we 
move forward with this hearing today. But I just want to let 
you know that when--when you look at things like statistics 
that have come out on public opinion in Latin America with 
regard to the standing of the United States in the region, the 
latest polls by Latinobarometro that just came out suggested 
that two-thirds of the population in Latin America strongly 
supports U.S. policy in the region. The standing of President 
Obama is extremely high in the region. That is an increase of 
10 to 20 points.
    So in country after country, we are seeing that our 
engagement, and I described it very thoroughly, the Secretary 
going to all of the countries, trying to address fundamental 
issues that are of concern to the peoples of the Americas, such 
as issues of public security, such as issues of 
competitiveness, such as issues of climate change, such as 
issues of how do you strengthen democratic institutions and 
that sort of thing. This engagement is paying off, Mr. 
Chairman.
    Mr. Mack. Can you maybe respond to the--how we deny 
Honduras the MCC compact and then we allow the one in 
Nicaragua----
    Mr. Valenzuela. The compact in Nicaragua is a 5-year 
compact that is ending right now. In the case of Honduras, what 
was at issue was whether there was going to be a renewal of the 
compact. And that goes to a board and the board determined that 
Honduras did not meet standards particularly on indicators of 
corruption. We discussed this with President Lobo and with the 
Government of Honduras. We are committed to continue to work 
with Honduras on this. We are going to provide resources. We 
hope that we might be able to move forward toward a new compact 
with Honduras in the future. And I doubt very much whether 
there is going to be any kind of a renewal of a compact with 
Nicaragua.
    Mr. Mack. And the corruption that you referred to, that 
happened under Zelaya's watch?
    Mr. Valenzuela. The corruption comes from an earlier 
period. I think that is right. Let me agree with you, 
Congressman, that Honduras ought to be brought back into the 
Organization of the American States. We are very impressed with 
the efforts that this government is making to move forward, to 
reconcile Honduras after the crisis of last year. And he is 
doing a superb job and I visited with him several times. We are 
really committed to working with Honduras and moving forward. 
We think that they have achieved an extraordinary amount of 
success and we are strongly supportive of this--their efforts.
    Mr. Mack. And the last concern there is in Honduras for the 
time being is that there is a lot of visas that have not been--
I guess that are still being revoked. Is there a movement in 
State Department to see that those that wish to get a visa that 
have been--those that have been revoked, that they will be 
reauthorized?
    Mr. Valenzuela. Visas are not still being revoked, but we 
are looking into how the visas that were taken away will be 
restored.
    Mr. Mack. Thank you. Mr. Engel, you are recognized for 5 
minutes.
    Mr. Engel. Thank you, Mr. Chairman. Before I begin, let me 
agree with the chairman. I really was disappointed in Honduras 
that the MCC compact was not renewed and I think it is 
especially egregious because a large reason why it was not 
renewed was because of the corruption that happened in the 
previous regime.
    So it doesn't seem fair to penalize Pepe Lobo, who I think 
is doing a very good job in terms of trying to get his country 
back to normal. So I want to add my voice to what the chairman 
just said. I mentioned that ATPDEA--I have long been a 
supporter of ATPDEA. I see the Ambassador from Colombia and the 
Ambassador from Ecuador are here. Tell me what is going on with 
that?
    And I know that we failed to renew it, the majority did. I 
know we are going to renew it. It has been my feeling that 
these things should be renewed for longer periods of time than 
they have in the past. What can you tell us about the renewal 
of ATPDEA?
    Mr. Valenzuela. Well, Congressman, I couldn't agree with 
you more that this is a really significant priority for the 
administration and it is certainly a very critical priority in 
our relationship with both Colombia and Ecuador. And I think it 
is essential to try to find a way for the Congress to move 
forward and to renew these preferences as soon as possible. And 
as you suggested for a longer period of time, it would be 
better because it provides a significant amount of instability. 
Investors, exporters and so on cannot plan if they are subject 
to this kind of suspension along the lines that has been 
occurring recently.
    Mr. Engel. Thank you. In my opening remarks, I mentioned 
the Western Hemisphere security coordinator and how now 
Chairman Mack and myself met with Secretary Clinton last year. 
I am calling for this. I am wondering if you could tell us what 
the progress has been on it. It didn't make sense to me when I 
called the State Department for whatever, nothing seemed to be 
coordinated as well as it should. And we all agreed, including 
the Secretary, that this would be a step in the right 
direction. So please tell me about the progress.
    Mr. Valenzuela. Yes, thank you for the question and we 
really appreciate--I appreciate--both you and Congressman Mack 
had with the Secretary at the time. And we have been concerned 
that with our efforts in Merida with regard to Mexico as well 
as for the Central American Regional Security Initiatives 
(CARSI) as well as for the Caribbean Basin Security Initiative, 
these three critical initiatives on security issues for Mexico 
and Central America and the Caribbean, that we have this 
properly coordinated. And in that sense, what we have done is 
we have identified a coordinator, the deputy Assistant 
Secretary and the Principal Deputy Assistant Secretary in the 
Bureau of Western Hemisphere Affairs who has probably more 
experience in this sort of thing than maybe anybody else that I 
know of in the State Department.
    In fact, she was there when I went into the State 
Department as a political appointee in 1994 and has 
extraordinary standing within the State Department. So we are 
working--and we like to work with your committee so we can 
properly announce this and review all of the issues that we are 
doing--all of the matters that we are focusing on with regard 
to security.
    Mr. Engel. I would like to announce it because one of the 
frustrations that all of us have had on both sides of the 
aisle, regardless of who the administration is, it has been in 
this administration, it has been with President Bush, we have 
seen the frustration that Congress moves in one panel and the 
administration seems to move in another place and this is a 
very good example of the administration listening to both of us 
and wanting to work in conjunction with us.
    So I look forward to that. And I know I speak for Mr. Mack, 
we would like to have a meeting with the coordinator as soon as 
possible so that we can tell the coordinator what our views are 
and work together on these issues. So I am happy to hear that.
    Let me ask you one last question. And that is--well, I have 
been very unhappy with many of the South American countries 
recognizing unilaterally the State of Palestine. I think it is 
unhelpful, frankly, in Middle East peace. I think such 
unilateral efforts undermine the Middle East peace process. The 
Middle East peace between Palestinians and Israelis can only 
happen, in my opinion, if both parties sit together in face to 
face negotiations and I think this unilateral recognition of 
Palestine is a disincentive for the Palestinians to come to the 
negotiating table because they feel that if they just sit back 
and do nothing, all this recognition will fall in their lap.
    So what are we doing in these countries to relay our 
displeasure with these decisions in South America and what are 
we doing to prevent other countries in the hemisphere to do the 
same?
    Mr. Valenzuela. Well, thank you for the question.
    Mr. Mack. Be quick, because his time is almost up.
    Mr. Valenzuela. Let me just simply say that we agree 
completely with your approach and your analysis on this. This 
is not helpful. It is up to the parties to negotiate this and 
we shouldn't be encouraging anybody to recognize Palestine, and 
we have made that very clear, Congressman, to all the countries 
at the highest levels. We have spoken to Foreign Ministers, we 
have spoken to Presidents, and we have gone across the region. 
So we have made a real effort in that regard.
    Mr. Mack. Thank you.
    Mr. McCaul is recognized for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here today. I appreciate 
your testimony.
    Five years ago, the Colombia Free Trade Agreement was 
negotiated. Four years ago, the Free Trade Agreement with 
Panama was negotiated. Now we are in 2011. I remember meeting 
with President Uribe, a staunch ally, supporter of the United 
States. President Bush negotiated in good faith with him to get 
the Free Trade Agreement, and it just seems to me continuing to 
hold up this agreement is a real slap in the face to an ally of 
ours.
    What is the administration's position on these two Free 
Trade Agreements, and when is the President going to submit 
these to the Congress?
    Mr. Valenzuela. Well, look, thank you for the question, Mr. 
Congressman. We agree completely with the fact that we have to 
move forward on both of these.
    And let me just say in some ways I am in a fairly special 
position, because I was at the White House in 1999 and 2000 
when we started working on Plan Colombia, and it became the 
single most important thing that I was involved in as the 
Senior Director for Western Hemisphere Affairs at the National 
Security Council. It was a long slog, and at first it didn't 
come out. And it turns out, I think, to have been one of the 
most successful policies of the United States in recent time in 
the Western Hemisphere and had the added, and I think extremely 
important, aspect of being a bipartisan foreign policy.
    And in that sense I would like to go back to Congressman 
Mack's suggestion. The more we can look at trying to do our 
foreign policy in the Americas, it is a bipartisan foreign 
policy, the better our interests are served.
    With regard to Colombia, I think that the Colombians have 
made extraordinary progress. I think that this current 
administration, the subsequent administration, has moved even 
further with regard to addressing many of the questions that 
had been raised by others.
    And so I think that we would agree with you that it is time 
to move forward on the Colombia and the Panama Free Trade 
Agreements. I can't tell you exactly how that is going to 
happen today, but that is certainly our commitment.
    Mr. McCaul. Because, you know, we talk a lot about jobs and 
the economy, and these two Free Trade Agreements, in my 
judgment, will create jobs in the United States. It will be a 
good, positive thing for our economy and good for our relations 
with our allies in this hemisphere. So I hope the 
administration will move quickly on that issue.
    You mentioned Plan Colombia, and I agree that was a very 
successful operation, and I applaud you for your efforts from 
the very beginning. As we look at Mexico, I have often 
advocated that maybe we need to do something similar in Mexico. 
Whatever we are doing right now, whatever President Calderon is 
doing is not working. The situation seems to be getting worse, 
and I would hate to see our friend just south of our border go 
into a state of collapse. So I was interested in your thoughts 
on that.
    On the Merida Initiative, why, I mean, it has been years 
now since we appropriated that funding, and yet it has been 
bottlenecked up, and we can't seem to push it through the State 
Department. What is the problem?
    Mr. Valenzuela. Congressman, we are very comfortable with 
the fact that much of the Merida funding is now flowing very 
well. In fact, some of the original funding that focused much 
more on the hard side, on the security side, is now being 
complemented much more by some of the other things that need to 
be done as well, particularly, for example, the standing up of 
effective police institutions and strengthening the judicial 
system particularly at the local level, where a lot of these 
challenges are taking place.
    So the commitment and the congressional response to it was 
substantial, as you suggested. I think that we are moving 
forward on this, and we are making progress.
    Mr. McCaul. The number--$1.3 billion appropriated, and the 
number I saw was something like $350 million has actually made 
it out through State to Mexico. Is that accurate?
    Mr. Valenzuela. Yes. I don't have the figures right in 
front of me. I will get them to you, but I think it is 
substantially more than that has been able to flow now.
    Mr. McCaul. If you could give me that information, I would 
appreciate that.
    Mr. Valenzuela. I will do that.
    Mr. McCaul. Lastly, I think, something that was very well, 
eloquently stated by Congressman Rivera. You know, we have an 
American in jail in Cuba since 2009, and this is one of the 
biggest human rights violations going on, in my judgment, and 
yet we do--we tend to give this dictator more and more 
concessions.
    What is this administration doing to secure Alan Gross' 
freedom?
    Mr. Valenzuela. Well, we would agree with you, Congressman. 
It is an outrage that they kept him for a year without charging 
him. Now they have turned around and charged him, and the 
charges are going to be 20 years, and we are continuing to 
demand his immediate release.
    Mr. McCaul. Well, I think we need to do everything in our 
power to free him, but thank you very much for your testimony.
    Mr. Mack. Next, Mr. Faleomavaega--how did I do--is 
recognized for 5 minutes.
    Mr. Faleomavaega. You did excellent, Mr. Chairman. I thank 
you very much.
    Mr. Secretary, I know I haven't traveled throughout Latin 
America as often as you have, and I am curious, does the State 
Department currently have statistics or data or information 
concerning the political, educational and social problems 
addressing the problems of the indigenous peoples of these 
countries living in Central and South America?
    Mr. Valenzuela. Congressman, I am very pleased that you 
have raised this issue, because, in fact, this is one of the 
most important efforts that we have been focused on more 
recently is to try to address some of the--in partnership with 
countries in the Americas--some of the lingering social issues 
that are so important.
    And what we are doing is we are working together with 
countries to try to improve their own treatment of their own 
populations to get better protections.
    Mr. Faleomavaega. Well, let us address this specifically, 
indigenous peoples in their own populations. I mean, I am 
addressing this issue directly.
    Mr. Valenzuela. Yes.
    Mr. Faleomavaega. Indigenous Indians living in these 
countries in Latin America. Does the State Department have 
relevant information and data?
    You know, it is like taking a census. If you are not 
counted, you don't exist, and it seems that over the years, in 
the times that I have traveled throughout Latin America, I have 
seen the scourge and the sufferings of the indigenous peoples. 
And I think there seems to be a little sense of just pretending 
like the problem doesn't exist.
    I visited the Indians of the Amazons, I have visited the 
people of the Incas. Yes, they participated in some extent. But 
correct me if I am wrong. Are they not the worst economically, 
educationally and socially throughout Latin America?
    Mr. Valenzuela. Well, absolutely, you are correct on that. 
The indigenous populations are the ones that are at the bottom 
of the rung, that have suffered historically with human rights 
abuses, and they have gotten trapped in civil conflicts and 
that kind of thing.
    There are large indigenous populations in some countries, 
as you well know, Bolivia, Peru, Guatemala. The administration 
is committed to working with these countries to try to come up 
with more effective programs to provide for not only support, 
but greater respect and respect for the rights of indigenous 
peoples. And, yes, it is an important emphasis.
    You know what? We are also looking at issues of Afro-
descendants in this Year of the Afro-descendants.
    Mr. Faleomavaega. Yes, Mr. Payne has addressed that. You 
know what is ironic about this--and I don't know if the 
chairman and our ranking member are aware of this--the George 
Washington of Mexico was a pure Indian from the Yucatan 
Peninsula. His name is Benito Juarez. And the irony of all of 
this, and, interestingly enough, people don't realize, but he 
was a pure Indian. He was the one that provided and set the 
independence of Mexico from its rulers. I guess the fellow's 
name was Napoleon or something. Anyway, it was during that 
period of time.
    I notice also with interest that the first elected Inca 
Indian, indigenous Indian, was Alejandro Toledo of Peru. The 
first elected native indigenous leader elected as leader of 
Bolivia is Evo Morales.
    Now, despite this development politically, I am still 
interested in wanting to find out if we have seriously 
addressed the issues affecting the needs and the blight of 
these native peoples, and I wanted to know if the Obama 
administration is committed in this effort?
    Mr. Valenzuela. Yes, we are committed to this effort. And 
as you suggest, the fact that in many of these countries you 
now have indigenous leaders that are being elected President, 
it shows also how much has, in fact, been overcome. The 
democracy is not just for a few.
    Mr. Faleomavaega. I apologize. I only have 50 seconds left.
    Mr. Valenzuela. Sure.
    Mr. Faleomavaega. I would like to give you copies of the 
letters that I sent to your office, to Secretary Clinton, to 
President Pinera, concerning the plight of the Easter 
Islanders. There are only 2,500 of them, and I would like to 
appeal to the good people of Chile, 17 million good Chilean 
people, sending a military against these natives who live on 
Easter Island, it just blows my mind how it would be a national 
security problem for the Government of Chile just to address 
seriously the needs of these native people.
    The reason why I am really concerned about this, Mr. 
Secretary, is that there are only 2,500 of them. It is not 
against the 17 million Chileans that I am talking about. And I 
am sure there are good people of Chile, but please pay 
attention to the problems that I am describing.
    Thank you, Mr. Chairman.
    Mr. Valenzuela. We will answer your letters.
    Mr. Mack. Thank you.
    The gentleman from Florida Mr. Rivera is recognized for 5 
minutes.
    Mr. Rivera. Thank you, Mr. Chairman.
    Mr. Secretary, my questions will start off with respect to 
the Cuban Liberty and Democratic Solidarity Act, otherwise 
known as Helms-Burton, suspension of Title III of Helms-Burton 
allowing U.S. citizens the ability to seek legal redress of 
grievances and access to U.S. courts to remedy claims against 
the Castro dictatorship in particular. The justification for 
suspending that provision for U.S. citizens is the promotion of 
democracy as determined by this government.
    How has the suspension of Title III of the Cuban Liberty 
and Democratic Solidarity Act by this administration promoted 
democracy in Cuba?
    Mr. Valenzuela. On that, the specifics of Title III, I will 
have to get back to you, Congressman. I can't answer that 
question right now.
    Mr. Rivera. You are familiar with the Helms-Burton Act.
    Mr. Valenzuela. I am familiar with Helms-Burton and what 
Title IV and Title III are, but I am not sure--if your question 
is what is the ramifications of that, I would not be able to 
fully answer that right now.
    Mr. Rivera. No, no, no. I don't want to know the 
ramifications. The administration has to claim the 
justification for suspending Helms-Burton as the promotion of 
democracy. How has suspending Title III promoted democracy in 
Cuba?
    Mr. Valenzuela. As I said, I will have to get back to you 
on that.
    Mr. Rivera. Alright. Let us go on to lifting of some other 
sanctions, and let us talk about the recent lifting of the 
recent sanctions.
    Mr. Valenzuela. Sure.
    Mr. Rivera. Can you provide any other example where 
unilateral concessions, unilateral concessions, have been met 
with democratic reforms by a totalitarian dictatorship?
    Mr. Valenzuela. Look, let me explain to you, and we 
probably have a fundamental difference of opinion, these are 
not concessions to the Cuban Government. These people-to-people 
programs are programs that we believe are important in 
advancing our fundamental interests with regard to Cuba, and 
that is to promote a climate in Cuba that will allow the Cuban 
people, in fact, to make their own----
    Mr. Rivera. Let me rephrase the question. Can you cite any 
concession by the dictatorship for democratic reform that has 
ever been made in the 52 years of its existence?
    Mr. Valenzuela. As far as I know, there have not been 
similar kinds of legislation regarding other countries. But I 
can tell you this----
    Mr. Rivera. I am only talking about Cuba right now. Let me 
make sure the question is clear. Can you cite any concession 
toward democratic reform that has ever been made by the Castro 
dictatorship in the----
    Mr. Valenzuela. Can I cite whether there is concession?
    Mr. Rivera. One more time. Can you cite any concession for 
democratic reform that has ever been made by the Castro 
dictatorship?
    Mr. Valenzuela. I can't think of any, no.
    Mr. Rivera. Okay. Then let us go to the specifics of what 
happens with these concessions.
    Mr. Valenzuela. Alright.
    Mr. Rivera. Travel and trade. In terms of the final 
disposition of trade and travel-related finances, meaning the 
money that is generated from this activity, where do these 
funds end up?
    Mr. Valenzuela. Well, I think that where you are going, 
Congressman, is that some of the money may, I suspect, in your 
view, support the regime, but it is our view that the 
overwhelming interest----
    Mr. Rivera. I am not judging. I just want to know where the 
money ends up. I want to see if it supports the regime or 
doesn't support the regime. Where does the money end up?
    Mr. Valenzuela. In the hands of the people that are going 
to be benefiting from this, the Cuban people.
    Mr. Rivera. And when they spend it, where does it end up? 
When they spend it in a diplomatic store, when they spend the 
money in Cuba, where does it end up, when it leaves their 
hands?
    Mr. Valenzuela. It goes into buying goods. They buy goods 
in state commissaries. In that sense it does go into the state 
commissaries. But as we see right now, Congressman, there is an 
enormous opportunity with the increasing trend toward 
privatization in Cuba.
    Mr. Rivera. Let me ask you about that, because you say 
state commissaries. Are there any private banks where this 
money goes into? Is there a private-sector entity to make 
investments, or does money, when it is spent in Cuba, end up 
anywhere else but in the hands of the state in its final 
disposition?
    Mr. Valenzuela. The objective of the reforms is for the 
money to essentially benefit the Cuban people. If there is an 
ancillary support for government institutions, that is minimal 
compared with what our objective is in trying to empower the 
Cuban people through an increase in----
    Mr. Rivera. Money ending up in the hands of the Cuban 
Government is minimal, okay.
    Do you believe Alan Gross is a hostage?
    Mr. Valenzuela. I think that he was unduly detained, 
incorrectly detained. He was held for a year, as I said 
earlier, and that was unconscionable. And now he has been 
changed with 20 years, and we demand his immediate release.
    Mr. Rivera. Can you tell me if you believe he is a hostage?
    Mr. Valenzuela. I don't think he is a hostage, no.
    Mr. Rivera. Thank you.
    Mr. Mack. The gentleman's time is expired.
    Mr. Sires is recognized for 5 minutes for questions.
    Mr. Sires. Thank you, Mr. Chairman, and thank you, Mr. 
Valenzuela, for being here today.
    I just want to associate myself with some of the comments 
that were made by the chairman, the ranking member and my 
friend from Florida.
    You might not call them concessions, but this is how we see 
it. You know, I was born in Cuba. I came here when I was 11 
years old. I was probably the only Member of Congress that 
lived there for 11 years, and I know what it is. So you may not 
call it concessions, but we do.
    You know, we work very hard here to set some of the 
policies that we have here, and then it goes to the State 
Department, and concessions are made. So I am not going to 
belabor the point, but I think Mr. Rivera did a good job on 
what he did.
    But I want to talk a little bit about Colombia. Who set the 
trip to Colombia? I assume the State Department, right? Excuse 
me, the trip to South America by the President.
    Mr. Valenzuela. No, it is determined by the White House.
    Mr. Sires. Is there a reason why he is not stopping in 
Colombia? I mean, I have been in this Congress now 4 years, and 
I keep hearing what a great supporter Colombia is, what a 
friend it is, what a great job they are doing. Yet the 
President is willing to fly right over Colombia and land 
someplace else. I mean, to me, I would have gone to Colombia 
before I go to Brazil.
    And the other thing that bothered me was that when the 
President of Colombia was sworn in, I was there. I was there 
with a couple of other Congresspeople. I didn't see too many 
high-ranking Department members there from the Department of 
State, I have to tell you. It was a little embarrassing that 
this--for 4 years I keep hearing what a great ally Colombia is, 
and yet when you look around, if it wasn't for the delegation 
that went, there would have been very little support, it seems.
    So, you know, I don't know why the President just seems to 
fly over Colombia. Can you----
    Mr. Valenzuela. Look, let me say this. We are extremely 
pleased that the President is going to the region. It is an 
indication of the commitment that the administration has to the 
Americas. Obviously there are quite a few countries. Some have 
to be chosen. It made sense to go to Brazil, the largest 
country in the region, in South America, and it made sense to 
go to a country in South America, and it made sense then to go 
to a country in Central America.
    Now, there are a whole host, Congressman, of criteria that 
I am sure were used by the White House as they looked at this. 
One example for concern was, you know, are there elections 
taking place, and would the President going to a particular 
country, for example, get involved in the internal elections? 
And so that probably excluded some countries.
    And in the case of Colombia, the President will be 
attending the Summit of the Americas, you know--that is the 
expectation at least--that is going to take place in Colombia 
next year. So there is travel by the President that we would 
hope will take place next year.
    I can't speak for the White House.
    Mr. Sires. You hope that it goes to Colombia next year.
    Mr. Valenzuela. I hope it goes to Colombia next year.
    Mr. Sires. Yes, so do we. So you might want to relate to 
the President that, you know, we would hope that he would 
consider stopping in Colombia. After all, they are our best 
friend, our best supporter. We always sing their praises, and 
yet we ignore them.
    Mr. Valenzuela. The Ambassador of Colombia is right here.
    Mr. Sires. He knows me because I have been to Colombia many 
times, and he knows exactly what I am talking about.
    Mr. Valenzuela. Right.
    Mr. Sires. In terms of Venezuela and the situation in 
Venezuela with Iran, I met a group of people at a dinner, and 
they told me that Iran has the largest, in terms of personnel, 
Embassy in Venezuela in the world. Is that accurate in terms of 
the amount of people working at this Iranian Embassy?
    Mr. Valenzuela. I could not say. I don't know whether that 
is accurate. I could find out for you.
    Mr. Sires. But there are flights twice a week, is it, into 
Venezuela from Iran, back and forth? And from what I gather, 
the people have come to my office, it just seems that Iranians 
are bringing boxes, bringing all sorts of merchandise, never 
really checked, and it just goes right through.
    So I can't--I mean, I am assuming the worst. Obviously this 
guy Chavez is a nut, you know, in so many words. And so I was 
just wondering if you have heard anything differently in terms 
of the amount of people that are working at this Embassy, 
because obviously that adds a great mischief.
    Mr. Valenzuela. I don't know what the size of their Embassy 
is in Caracas, and I could try to find out and get back to you 
on that.
    Obviously, Congressman, we are concerned about the 
relationship between Venezuela and Iran. Iran is, you know--has 
been designated as an exporter of terror. They are in violation 
of U.N. Security Council resolutions on issues of 
nonproliferation. And so we have let both the Venezuelan 
Government and PDVSA know that they are probably in violation 
of CISADA commitments that don't permit entities to 
commercialize with Iran.
    Mr. Sires. Thank you very much.
    Mr. Valenzuela. You are welcome.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Mack. Thank you.
    Mr. Payne, you are recognized for 5 minutes for questions.
    Mr. Payne. Thank you very much.
    There is an international agreement that--and this kind of 
has a question about human rights--I am sure that you are aware 
that El Salvador, the smallest country in South America, is 
being sued by two corporations via the Central American Free 
Trade Agreement, you know, CAFTA. Citizens, communities leaders 
and churches have uniformly said ``no'' to corporations that 
will jeopardize their water supply, ecosystems and environment. 
One of these companies, Pacific Rim Mining, is actually a 
Canadian-based company, went on to register itself in Nevada, 
was denied, sued in Canada. Now they are suing as a U.S. 
affiliate.
    Is the State Department aware of issues like this, and do 
we tend to try--of course, we can't dictate what a country 
should do internally, but do we side, take an advocacy position 
to the government, at least, suggesting that they should take 
the will of the people in consideration?
    Mr. Valenzuela. Yes. Thanks, Congressman, for the question. 
And the answer is yes, that we often work with corporations, 
and we work with governments, particularly when it comes to 
extractive industries, to make sure that the practices that 
extractive industries use are not only respectful of human 
rights and environmental issues, but also the rights of 
indigenous populations that might be affected significantly by 
this kind of activity.
    So it is something that we do take very seriously and that 
we try to work with companies. Many are now much more committed 
than in the past to corporate social responsibility understood 
in a broad sense.
    Mr. Payne. There is a particular issue in Peru, just the 
reverse. This was a company, U.S.-based company, Doe Run Peru, 
called DRP, which is in New York, so I know about the company. 
And they had--the government said they had to clean up in an 
environmental issue. They have invested $315 million in their 
clean-up. The government was supposed to do the other half. The 
government has refused to do it.
    So this company cannot operate, and I wonder if you could 
have your--and I will give you some direct information. We have 
already sent a note to the Secretary, but I would appreciate it 
if you could follow up on it, because it appears that we have 
to have these countries know that we are serious about American 
companies getting a fair shake.
    Secondly, we have got to let American companies know that 
they don't have a right to pollute and make it difficult for 
people in those countries, because in many instances, as you 
know, they are vulnerable people. So I will get that to you 
before you leave.
    And as you know, as I mentioned before, labor unions have 
had a very difficult time in Colombia; 2,800 union activists 
have been killed since 1986. Now we hear about the fact that we 
ought to have this Free Trade Agreement, and I think we should, 
but has the State Department raised the issue? And the problem 
is that there is no prosecution. You know, the murders go 
unsolved. Have we had any concern with that?
    Mr. Valenzuela. Yes, absolutely we have had concern, and I 
am pleased to say that we are moving ahead in a very 
constructive fashion with the Colombian Government to address 
these issues. I, myself, took part directly in the high-level 
dialogue that we have established with the Santos 
administration on a whole range of issues.
    When we deal with Colombia, what is encouraging now is that 
we are not just talking about security concerns, we are talking 
about broader issues that have to do with other elements, 
whether they are social issues and things like that, or how we 
can work together in Central America and other parts of the 
hemisphere. So we have a very broad dialogue, and I chaired, 
myself, co-chaired with the Vice President of Colombia, I 
chaired our side in this dialogue on human rights and labor 
rights. And, as you know, the Vice President is a former labor 
leader and has taken this very, very seriously.
    So I think that we have seen tremendous progress in this 
regard, even though there are some issues that are out there.
    Mr. Payne. Thank you. My time has expired, but I wonder if 
you could look into the funding on the State's Race, Ethnicity, 
and Social Inclusion Unit, which expires, and administers to 
Brazil and Colombia joint action plans on racial equality. If 
you could get back to us on whether the State Department will 
continue that very noble program.
    Mr. Valenzuela. Let me just say that we value that program 
enormously, and we thought it to be extraordinarily important, 
and what we want to try to do is expand it. In fact, we have a 
discussion with the Colombians on Afro-Colombian issues and 
looking at Central America to maybe look at the Atlantic coast.
    Mr. Payne. Thank you very much.
    Mr. Mack. Thank you, Mr. Payne.
    Now I am very pleased to recognize the ranking member of 
the full committee Mr. Berman for 5 minutes.
    Mr. Berman. Thank you very much, Mr. Chairman. I won't take 
that long. I wanted to thank you for yielding me this time.
    Secretary Valenzuela, I want to thank you for all the good 
you have been doing in your position.
    The President announced in the State of the Union that he 
is going to travel to Brazil, Chile and El Salvador in the 
second half of March, and I want to just particularly express 
my appreciation that El Salvador is included in the President's 
upcoming trip.
    It seems strange to say it, I mean, El Salvador has been 
through incredibly difficult times, but it truly--I guess it 
says something about the region, but it has actually emerged as 
an anchor of stability in Central America. And I think 
President Funes deserves our support and the recognition for 
the role that he is playing by the trip there.
    And I was wondering if you could just use this opportunity 
to explain a little bit. I mean, people could understand Brazil 
and Chile, obviously, but why El Salvador?
    Mr. Valenzuela. Well, thanks very much for the question, 
and thanks very much for coming to this hearing and for your 
interest in Latin America.
    I was in El Salvador just last week for 2 days, and there 
is a lot of excitement in El Salvador about the President's 
visit.
    And as you say, we are particularly delighted to be engaged 
with a country that has come so far from the tremendous 
difficulties that we saw in the past.
    It is the Central America wars, and today it is a country 
that strikes me has democratic processes, where there is a 
greater dialogue across the political divide in the past. There 
is still a degree of polarization, but there are elements on 
both sides that are making an effort to try to overcome that 
and also to try to get the country moving ahead.
    They have great challenges, and the problem with public 
security and citizen security continues to be a really 
significant problem. But they are kind of an anchor, as you 
suggest, in the northern tier there in Central America, and 
thereby they are also absolutely critical for our Central 
America strategy on security issues and, more broadly, on 
engagement with Central America.
    So the choice of El Salvador, I think, was a very 
solicitous one, I think, on the part of the White House in that 
regard. And we agree with you that President Funes is doing a 
very good job of trying to work through a situation to build a 
consensus to make sure that the country can move forward.
    I might end my comment by saying that I was down there in 
particular because we have also started a program with four 
countries in the world, the Philippines, Ghana, Tanzania, and 
the White House also picked El Salvador on what is called the 
Partnership for Growth, and that--what we are working with El 
Salvador is to seek how we can work more effectively to 
identify constraints to growth. And this is very much on the 
economic side, because, you know, the proof of the pudding as 
we move forward is the ability of these societies to generate 
viable economic systems that produce jobs and that make for 
better lives for their people.
    Mr. Berman. Thank you.
    Mr. Mack. Thank you very much.
    If you don't mind, I think have another round of questions 
for you.
    Mr. Valenzuela. I would be happy.
    Mr. Mack. Wonderful.
    As stated in section 7 of the Iran Sanctions Act of 1996, 
the Secretary of State may issue an advisory opinion explaining 
whether an action is in violation of the sanctions. Recent 
reports show that Venezuela is sending shipments of gasoline to 
Iran that are in clear violation of sanctions against Iran.
    So my question to you very specifically, is Venezuela 
violating the sanctions against Iran?
    Mr. Valenzuela. Let me say that we are looking at that 
issue; that we have raised this with both, as I said earlier in 
my testimony, with the state oil firm, with PDVSA, as well as 
the Venezuelan Government, because we are trying to determine 
whether or not there is, in fact, a violation of those 
sanctions.
    Mr. Mack. Then I would follow up with that, should we 
anticipate an advisory opinion regarding Venezuela's 
violations? Is that something that the committee should expect?
    Mr. Valenzuela. I can't tell you right now, but we are 
certainly looking into this.
    Mr. Mack. I want to go back. There are a lot of questions 
about the Free Trade Agreements and the trade preferences. And 
all along we have been hearing that there are--you know, there 
are certain benchmarks, or they are--almost like we are holding 
out, the United States is holding out for something.
    Can you tell me exactly what it is that we are waiting for 
that the administration is waiting for to send those agreements 
to the Congress?
    Mr. Valenzuela. I can't tell you exactly. What we are doing 
is we are continuing to have a dialogue with the Colombians, as 
I suggested to you earlier, which includes addressing many of 
the lingering issues that some folks do have of concern and 
that we still have a concern on some of these matters. But let 
me make absolutely clear that our position is that we really 
need to move forward with the Colombia Free Trade Agreement.
    Mr. Mack. And the frustration is we keep hearing that, but 
nobody knows what it is that you are waiting for. In other 
words, when you say that there are things that you are talking 
about, what are those things? You should put those out on the 
table.
    Could you tell us exactly what it is--it is hard to have 
dialogue about an issue if you are unable to articulate the 
problems that you are trying to address. So can you tell us 
what the problems are with those Trade Agreements that are 
keeping them from coming to the Congress?
    Mr. Valenzuela. As I say, you know, we are committed to 
moving these forward. And in the dialogue that we have had with 
the Colombians, we continue to explore some of the areas that 
are of concern to some Members and to others in this country 
specifically on issues of labor rights and the issue of the 
killing of labor leaders. But let me----
    Mr. Mack. Let me--real quick.
    Mr. Valenzuela. I don't have a specific metric, 
Congressman. So that is about----
    Mr. Mack. Now, some of those were questions that came up 
early on that have been addressed. And it just feels like, you 
know, that we are jerking them around a little bit because no 
one is able to really answer the question what are the other 
benchmarks. And may I suggest that if there are one or two 
Members of Congress that continue to put up these--or stopping 
the State Department or the President from sending these Trade 
Agreementqs, then they should put those out on the table 
publicly. But the majority of the Members--it is my 
understanding that the majority of Members are ready, willing 
and able to pass these Trade Agreements.
    The harm that is being done in Latin America is huge 
because we are not able to move these things. So, you know, if 
you wouldn't mind, if there are some specific issues that the 
State Department has or the administration has, if you would 
bring them forward so we can try to get those answered, because 
it just feels like we are waiting them out.
    Mr. Valenzuela. Okay. I will get back to you on that, but 
let me reiterate that we feel the same way that you do, that we 
have to move forward on it.
    Mr. Mack. Well, I have heard the President say that he 
supports it. I have heard the Secretary of State say that she 
supports it. I have talked to my colleagues; they support it. 
So it is frustrating when everyone you talk to says, we are for 
them. And then when we ask, well, what is held up, we don't 
seem to get any real answers. So it just seems to me that, 
again, I think that goes to the whole purpose of this hearing, 
do we have a foreign policy, because it appears that if we do, 
it contradicts itself. And this is one way that we can show our 
friends and allies that we support them.
    So I would encourage you to get those questions answered, 
and let us move forward with those Free Trade Agreements.
    Mr. Engel is recognized for 5 minutes.
    Mr. Engel. Thank you, Mr. Chairman.
    First of all, Mr. Secretary, let me personally thank you 
for the wonderful job that you have done. You and I have talked 
a great deal, and I do appreciate everything you are doing for 
our country.
    I want to touch on a bunch of points in the 5 minutes I 
have. Many members here have mentioned Venezuela. I am very 
concerned as well, as you know, with their relations with Iran, 
Iran being the greatest exporter of terrorism. We constantly, 
or periodically, get reports of Iranian or Hezbollah agents 
traveling through Venezuela. Have you heard any of those 
reports lately? Is there any validity to that?
    And also, Venezuela, just a couple of months ago, formally 
rejected distinguished career diplomat Larry Palmer to be the 
next U.S. Ambassador. What is the current status of efforts to 
exchange ambassadors with Venezuela? I happen to think that 
they have some nerve rejecting him, quite frankly, and so I 
want to know about the status of that.
    Mr. Valenzuela. Well, thank you for your kind words, Mr. 
Chairman--see, I am used to calling you Mr. Chairman.
    Mr. Engel. You can keep doing it.
    Mr. Valenzuela. I can keep doing that with your permission?
    Mr. Mack. That is fine.
    Mr. Valenzuela. With regard to Venezuela, yes, as I said 
earlier in my testimony, we are concerned about the links with 
Iran precisely because of Iran's violations of so many of these 
international dispositions, particularly the U.N. Security 
Council resolutions, and it is something that we continue to 
monitor very closely. And I suspect that we are going to look 
at some other additional determinations on this.
    With regard to the naming of the Ambassador, yes, we 
strongly supported a superb career ambassador, and we were 
disappointed, very disappointed, that the Venezuelan Government 
withdrew the agreement for his designation as Ambassador to 
Caracas.
    Mr. Engel. Talk to me about the Government of Haiti. The 
government of Preval has finally accepted the OAS 
recommendations of the top two candidates, and we now have Baby 
Doc Duvalier coming there and possibly Aristide coming there. 
Tell he me how confident we are that there will be a peaceful 
transition of power. And in terms of the relief effort, where 
does it stand? It seems to be still a lot of people homeless 
and sleeping in, you know, makeshift tents. And what is the 
status of our help to the Haitian people?
    Mr. Valenzuela. Well, look, we were pleased that the CEP 
finally came out with a determination of the first round of the 
election that tracked the observer mission of the Organization 
of American States, and we look forward to the second round of 
the election that is coming up on March 23, I believe. And I 
think this moves the process forward.
    I think it is important for this electoral process to take 
place. The legitimacy of institutions is very important in 
Haiti, and so the legitimate electoral process is critical. And 
I think we are moving in that direction, so that is, I think, 
helpful. We continue, we must continue, to support them.
    Secondly, with regard to the aid and relief effort. If I 
might take advantage of just one of your minutes to simply 
compliment the work that MINUSTAH does, the United Nations 
effort, and particularly some of the countries from the Western 
Hemisphere that have worked so much with regard to MINUSTAH. 
And I think that they provide security there.
    As you know, this is a mission that is headed up by a 
Guatemalan diplomat, but with strong support on the security 
side from Brazil, countries like Uruguay, Chile and others. And 
this is a notable example, I think, of hemispheric solidarity.
    And then thirdly, with regard to the specifics, I think we 
are moving ahead. It was frustrating at the beginning to get 
the relief. The immensity of the catastrophe is something that 
is really beyond words, and so the task of having to sort of--
you know, that the international community faced with Haiti was 
also enormous. But I think that we are seeing now more rubble 
removed, more progress in terms of trying to be able to rebuild 
the society.
    Mr. Engel. I am going to ask the chairman's indulgence 
because I want to ask you--and perhaps we can talk about it 
later if you don't have time to answer--what the heck is 
happening with Argentina with all the stuff happening? I know 
that they are unhappy that the President is not visiting there. 
I wonder if you can comment on that.
    But my question is really this: Brazil has recent interest 
in the U.S. offer to sell fighter aircraft, the F-18, the Super 
Hornet, as a part of a Foreign Ministry sales transaction 
between our two countries. I am glad that they are seriously 
considering it. There are ongoing concerns, however, about the 
level of U.S. commitment to support the terms of this sale in 
the area of technology transfer. These are concerns that are 
raised.
    So to what extent do you believe that such a sale promotes 
the cooperation in interoperability and shared security 
interests with the U.S.? And what is the administration doing 
to assure Brazil of our commitment to the terms of this sale 
and the sharing of associated technologies? And will this be 
raised by Secretary Clinton in her upcoming consultation with 
her counterpart Mr. Patriota?
    Mr. Valenzuela. Yes. Well, look, let me make clear that we 
have made clear through various different entreaties with the 
Brazilians that we do support the Super Hornet, and that we 
think it is a far superior aircraft. And we are pleased that, 
you know, the new President has given some wiggle room to the 
competition and try to see whether there is a possibility that 
we might engage.
    For further details, I would refer you to our friends at 
DOD and others on that, but it is something that we are 
definitely pushing.
    Mr. Engel. Thank you.
    Mr. Mack. Thank you.
    The gentleman from Florida is recognized for 5 minutes.
    Mr. Rivera. Thank you, Mr. Chairman.
    Mr. Chairman, I want to go back to the case of Alan Gross, 
because I think it goes to the larger issue of treatment of 
American citizens generally in Cuba and our Government's 
response to it.
    Are you familiar with the upcoming date of February 24 and 
its significance in U.S.-Cuba relations?
    Mr. Valenzuela. Remind me.
    Mr. Rivera. February 24, 1996, to be specific?
    Mr. Valenzuela. Oh, yes. Are you referring to the--right.
    Mr. Rivera. I am referring to the date in which four 
Americans----
    Mr. Valenzuela. The shoot-down.
    Mr. Rivera [continuing]. Were murdered over international 
waters by the Cuban dictatorship, four Americans murdered on 
February 24, 15th anniversary coming up. I suspect your 
Department will be issuing a statement, or the White House will 
be issuing a statement, once again condemning that inhumane and 
brutal act.
    With respect to Alan Gross, I am wondering, you don't 
consider him to be a hostage. Do you consider his incarceration 
lawful?
    Mr. Valenzuela. I think it is unlawful.
    Mr. Rivera. So how would you describe him, as a detainee, 
unlawful combatant, prisoner? How would you describe Alan 
Gross?
    Mr. Valenzuela. I haven't thought about it semantically. He 
is a detainee, I guess.
    Mr. Rivera. Has the Castro dictatorship made any effort--I 
know they have discussed publicly links between Alan Gross and 
other issues such as the Cuban Five. Have they privately, or in 
any discussions, any negotiations, made any effort to link the 
Alan Gross case with any other issue whatsoever?
    Mr. Valenzuela. No, they have not, not to my knowledge.
    Mr. Rivera. Every discussion that has come up regarding 
Alan Gross has never made reference to any other issue related 
to U.S.-Cuba relations?
    Mr. Valenzuela. Well, we have had our conversations with 
them on things like the migration talks, and we have raised the 
issue of Alan Gross. They have complained about--they have a 
long litany of complaints against the United States, but there 
has never been, on our part or any part, any specific linkage.
    Mr. Rivera. Such as, in that litany?
    Mr. Valenzuela. Such as?
    Mr. Rivera. Has the Cuban Five ever been raised?
    Mr. Valenzuela. No, not that I am aware of. I haven't been 
in all conversations with the Cubans.
    Mr. Rivera. Have any sanctions against the government been 
raised?
    Mr. Valenzuela. No, we have not discussed sanctions with 
the Government of Cuba.
    Mr. Rivera. So when you say they have raised a litany of 
issues, what was an example of the litany?
    Mr. Valenzuela. Concerns over the embargo.
    Mr. Rivera. Sanctions.
    Mr. Valenzuela. Embargo is sanctions.
    Mr. Rivera. Okay. So they have discussed the lifting of 
sanctions in connection with discussions about Alan Gross. 
Recently I know Alan Gross' wife was able to visit Mr. Gross. 
At the same time, I believe, one of the wives of the Cuban Five 
spies was able to visit. Was that a coincidence?
    Mr. Valenzuela. There were two wives were able to visit, or 
one--I can't remember--and this was--that particular discussion 
with them was not coincidental. You are right, Congressman.
    Mr. Rivera. It was not coincidental.
    And in that case, let me refer you to Webster's dictionary 
and the definition of ``hostage'': A person held by one party 
as a pledge pending the fulfillment of an agreement, or a 
person taken by force to secure the taker's demand.
    Now, you have told me that there was no coincidence in the 
visitation. You have told me they have raised the issue of 
sanctions in discussion with Alan Gross. So I will ask you 
again, based on this definition of ``hostage,'' do you believe 
Alan Gross is a hostage?
    Mr. Valenzuela. Actually I am going to backtrack on my 
comment, Congressman. There was an effort made earlier to have 
those visitations, and that did not go through. So the timing 
on that was not directly linked to Gross because we had made--
there was an effort earlier to try to look at the visitations.
    And if you want to call it ``hostage,'' I am happy to agree 
with you if you want to call it a ``hostage.'' I think he is a 
detainee.
    Mr. Rivera. Well, if you agree with me that he is a 
hostage, perhaps a detainee, you said earlier in response to my 
colleague's questions on efforts to release this hostage that 
we continue to insist he be released.
    Mr. Valenzuela. Exactly.
    Mr. Rivera. Is that the extent of the administration's 
efforts to release an American hostage named Alan Gross in 
Cuba?
    Mr. Valenzuela. We continue to insist that they release 
him. That is right.
    Mr. Rivera. Thank you, Mr. Chairman.
    Mr. Mack. Thank you.
    And the gentleman Mr. Faleomavaega is recognized for 5 
minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. And I deeply 
appreciate your patience and wanting to give me another 
opportunity again to ask Secretary Valenzuela a couple of 
questions.
    Mr. Secretary, I realize in fairness to you, because it is 
difficult for me to raise these questions with you concerning 
Easter Island, or Rapa Nui, because apparently you may have 
never received my letter, and maybe the paper shuffling that 
goes on with the bureaucracy, so you are not aware of the 
concerns and the problems that I have raised concerning this 
problem.
    I appreciate the definition by my good friend Mr. Rivera 
what a hostage is, because this is exactly what is happening in 
Easter Island with the presence of some 100 police, military 
police, members of the Chilean military forces now in prisons 
there.
    Again, this little island, Mr. Secretary, is well renowned, 
and pretty much despite its small size, it is known throughout 
the world for these native people who built these statues 
called aku-aku, or moai, human statues weighing tens of tons 
culturally. And I say this because there is a kinship and 
relationship between the people of Easter Island and me.
    Now, whether it be the needs of Mr. Gross or the 2,500 
people, they are human beings, and in the advent of the recent 
military dictatorship of Mr. Pinochet and Chile, I will say 
that Chile has come a long way not only in obtaining democratic 
reforms, but the elections that have taken place. And I know 
that I am also aware that Chile is one of our outstanding 
trading partners. And I have to give credit to the leaders and 
the good people of Chile that they have become one of the 
shining stars of Latin America economically and even 
politically.
    But I will say, Mr. Secretary, that I just am at a loss, 
maybe because these people are so small. They are members of 
the Province of Valparaiso that makes up Chile. They bear no 
economic difference politically--I mean, militarily and 
economically. These are just people that just want to lay 
claims to their ancestral homeland or their lands.
    And I must say that the Chilean Government has been very 
unfair, and I say measures of brutality, because people have 
been wounded seriously by these rubber bullets, have been shot 
at, in the course of the past couple of weeks. And I don't know 
if your office has been aware or our Embassy in Chile has been 
made aware of the problems arising out of Easter Island, but I 
will deeply appreciate your assistance in seeing that these 
issues are addressed.
    I wanted to ask you, on the question of the historical 
relationship between Chile and these people, seriously question 
how they came about taking control of this island that is 
apparently 2,300 miles away from Chile, no cultural 
relationship whatsoever between the people of Easter Island and 
those of Chile.
    I know we have talked about economic exclusive zones, and 
this is really nice, and talking about fishing rights and all 
of this, but no questions, despite the appeals made by the 
Easter Island Parliament, the leaders, in trying to provide 
some kind of consultations with the Chilean Government. It has 
been just really don't care. I don't appreciate that, and I 
wanted to know if your office will look into this.
    And before I finish, I just wanted to request from the 
State Department whatever information or data that the 
administration has or the State Department has concerning the 
economic, social and educational standings of the indigenous 
Indians or indigenous peoples living in these countries 
throughout Latin America. And I say in the millions, the number 
of people, but I am just hazarding a guess here, and I would 
deeply appreciate if you could submit that and be made part of 
the record. If it is alright, Mr. Chairman, I ask unanimous 
consent that this be done.
    Mr. Mack. Without objection.
    Mr. Faleomavaega. And send it also to my office. I would 
deeply appreciate it.
    Thank you, Mr. Chairman. My time is up.
    Mr. Mack. Thank you very much.
    A few more questions, if you don't mind.
    I want to talk a little bit about--go back to Hugo Chavez a 
little bit and Venezuela. Isn't it a fact that Hugo Chavez 
supports terrorists in Venezuela?
    Mr. Valenzuela. There has been some concern, Congressman, 
of the support that Hugo Chavez has given to elements of the 
FARC.
    Mr. Mack. Some concern, or is this----
    Mr. Valenzuela. Well, no, real concern. This is one of the 
reasons why he was, you know, put on a--it is short of being on 
the terrorist list, which is why I know that you are concerned 
about, but it was designated in such a way because they are 
not--they are not complying, and they are not cooperating on 
issues having to do with terrorism. So it is a yes.
    Mr. Mack. So, yes, he is supporting terrorists?
    Mr. Valenzuela. Although if I might--if I might add a 
point, that we see a declining support for the FARC 
specifically in the last few months, particularly since 
President Santos in Colombia has reached out to Venezuela.
    Let me say that, you know, I am not sure that that is going 
to work out. You know, I am skeptical about that. But there has 
been a definite reduction in support for the FARC.
    Mr. Mack. Which is a terrorist organization.
    Mr. Valenzuela. It is a terrorist organization, yes.
    Mr. Mack. Okay. Isn't it a fact that Chavez supports other 
rogue regimes by selling gasoline to Iran and engaging with 
Syria and Libya?
    Mr. Valenzuela. Yes. I mentioned to you that we brought 
this to their attention to see whether, in fact, they are 
violating our own legislation in that regard.
    Mr. Mack. But the evidence is there. He is supporting, he 
is selling gasoline to Iran?
    Mr. Valenzuela. He is violating the international 
sanctions, it appears.
    Mr. Mack. And isn't it a fact that Hugo Chavez disavows 
freedom, undermining the press and discrediting political 
opposition figures in his country?
    Mr. Valenzuela. We have expressed our concerns over the way 
he has gone after the press and the way he has harassed 
opposition figures. And as I said recently publicly, we were 
concerned about the way in which the National Assembly 
delegated executive authority to the President, contravening, I 
think, the sovereignty of the new National Assembly that was 
elected later.
    Mr. Mack. So it is also a fact, then, that Chavez 
manipulates legislative and judicial institutions in Venezuela, 
giving himself decree powers, threatening judges?
    Mr. Valenzuela. Exactly. And that is of concern.
    Mr. Mack. And when you say ``concern,'' you are not saying 
concern like concerned whether or not it is happening. It is 
happening----
    Mr. Valenzuela. It is happening. Yeah, it is happening. 
When I say about concern, I mean we are concerned about it. 
Yeah.
    Mr. Mack. It brings me to two things. Well, we would agree 
that in the case of the OAS, that Venezuela is considered to be 
a member in good standing?
    Mr. Valenzuela. It is a member in good standing, yes.
    Mr. Mack. So why do we continue to fund the OAS?
    Mr. Valenzuela. Well, I think we will need to work with 
other countries to more effectively, Congressman, raise within 
the OAS and other for a situations where there may be a 
violation of democratic institutions and democratic rights.
    Mr. Mack. But if we know all of these things are facts 
about Hugo Chavez, why do we continue to support an 
organization that is in violation of its own charter?
    Mr. Valenzuela. I think it is in our interest, Congressman, 
to continue to work with the OAS, to try to make sure that the 
OAS, in fact, meets the obligations that it needs to do. For us 
to simply walk away from the OAS thinking that because they are 
not doing this would be to abdicate our own responsibilities 
and leadership.
    Mr. Mack. But wouldn't it show more leadership that if we 
showed our friends like Panama and Colombia that we support 
them and that we are going to move the Free Trade Agreements 
than it is to continue to fund an organization that is in 
violation of its own charter?
    Mr. Valenzuela. I don't think they are mutually exclusive, 
Congressman, with all due respect. I think that we need to work 
to support Colombia free trade, Panama free trade, and at the 
same time to strengthen our Organization of American States, to 
make it a more effective institution.
    Mr. Mack. Just so you know, I am planning on introducing 
legislation to withhold funds from the OAS until at such time 
the OAS can ensure that it actually is fighting for freedom and 
democracy in Latin America instead of supporting states like 
Venezuela and Hugo Chavez, who we agree supports terrorists, 
supports rogue regimes, disavows freedoms, manipulates 
legislative and judicial institutions, and has torn apart the 
domestic fiber of Venezuela. At the same time, I think it is--
--
    Mr. Valenzuela. Could I interrupt you?
    Mr. Mack. Let me just real quick. You are going to also see 
that I plan on continuing to push that the State Department put 
Venezuela, put Hugo Chavez on the State Sponsor of Terrorism 
list. And this gets to the crux of the entire hearing today. 
The question is, do we have a foreign policy? And it appears 
that our foreign policy, instead of standing up for America's 
interests and what is good for America and our allies, we seem 
to continue to engage in organizations and with countries that 
are in direct conflict to what it is that America's interests 
are.
    Mr. Valenzuela. Let me respond by first underscoring the 
fact that despite some frustration over the inability of the 
OAS to move forward to strengthen the democratic charter--
remember, this is an organization of member states, so there 
has to be some kind of consensus to do this. This is something 
that is not just done out of the Secretariat of the OAS.
    Mr. Mack. Doesn't it have to be a unanimous vote?
    Mr. Valenzuela. It depends on what for. But, no. 
    It doesn't have to be a unanimous vote if you want to raise 
concerns about that.
    But let me make a point that the Inter-American Human 
Rights Commission, which is part of the OAS, has a strong 
history of defense of democratic values, and they have come out 
with some very clear statements that are critical of Venezuela 
recently, and very bold statements. And they have done so by 
also criticizing press freedoms in Venezuela. And the Secretary 
General of the OAS also recently made some clear comments about 
his concerns over the delegation of authority that we talked 
about earlier. So the picture is not quite as black and white 
as you suggest, in my view.
    Mr. Mack. Well, we have a difference of opinion because I 
think it is pretty crystal clear.
    The gentleman from Florida is recognized for 5 minutes.
    Mr. Rivera. Thank you, Mr. Chairman.
    Just continuing on the issue of the treatment of American 
citizens and how the U.S. Government responds to that treatment 
by the Cuban dictatorship, are you familiar with the case 
relating to the 1996 rescue, shoot-down of a Cuban spy who had 
infiltrated the Brothers to the Rescue Organization and, right 
before those four Americans were murdered, had returned to 
Cuba? Are you familiar with that case?
    Mr. Valenzuela. I am not familiar with the case.
    Mr. Rivera. So you are not familiar with the case of the 
spy who had infiltrated this organization and also married an 
American citizen named Ana Margarita Martinez?
    Mr. Valenzuela. I am not familiar with that case.
    Mr. Rivera. Well, I know Ana Margarita Martinez was a U.S. 
citizen who a Cuban spy married who was part of the Brothers to 
the Rescue shoot-down plot, who also received a judgment by a 
U.S. court against the Cuban Government for that action against 
her, and recently has tried to collect on that judgment and has 
been blocked by this administration collecting on that 
judgment. Why is the U.S. Government trying to block a U.S. 
citizen from collecting a judgment against a foreign 
government?
    Mr. Valenzuela. Well, I will have to look into that since I 
don't know this particular case.
    Mr. Rivera. If I send you some written questions, would you 
indulge me and respond to those questions?
    Mr. Valenzuela. I will respond to your questions.
    Mr. Rivera. Thank you very much.
    Going back to one of your previous comments regarding the 
impact of convertible currency going to the regime, you 
describe it as minimal compared to what the administration is 
trying to achieve. We have seen estimates of billions of 
dollars, U.S. dollars, going to Cuba in terms of travel, 
particularly travel; business between the United States and 
Cuba; money that funds the military, military enterprises; 
money that funds the instruments of repression in Cuba, as you 
would recognize, I am sure. There are no labor rights or no 
collective bargaining rights in Cuba. There is no private 
sector. There is no entrepreneurial class. There is no economic 
activity that could be considered within normal circumstances, 
by normal standards, by any other country in the world.
    Based on that and the purposes of that money, do you stand 
by the statement that that money going to the regime really has 
a minimal impact?
    Mr. Valenzuela. I agree with your analysis that it is a 
totalitarian state, that the state controls everything, that 
the people don't have independent economic lives. And that is 
precisely why the policy needs--we need to find a policy that 
is effective in reaching out to the Cuban people, because the 
Cuban people are desirous and want to be able to engage with 
people elsewhere.
    Mr. Rivera. Let me follow up with that. The problem is I 
have got 2 minutes left on my time, and I really want to follow 
up on that statement.
    For decades now, people have been traveling to Cuba, 
families have been traveling to Cuba. We have been trading with 
Cuba. We are one of Cuba's largest trading partners since 2000, 
when the restrictions were lifted on trading with medical and 
agricultural products in particular. The entire world trades 
with Cuba. The entire world travels to Cuba. You just said to 
me that that type of policy, that type of engagement, promotes 
democracy. What democracy has been promoted in the decades and 
decades that that policy has been pursued with respect to Cuba?
    Mr. Valenzuela. I think that the kind of engagement you 
might be referring to is people going on tourist vacations and 
just simply using that opportunity. What this policy does, it 
does not----
    Mr. Rivera. There is no tourism in going to Cuba from the 
United States. I am talking about the policy of the United 
States engaging Cuba, families traveling, trade with Cuba, 
cultural, academic exchanges that have been there for decades. 
What reforms have resulted?
    Mr. Valenzuela. I think that those efforts have been 
minimal and that this is a substantial way to--it takes time to 
work, Congressman. I think it takes a while for that to work.
    Mr. Rivera. Okay. I appreciate that remark very much, 
particularly having read some of your books in graduate school. 
When I meet privately with you, I am going to remind you of 
that remark of how much it takes for engagement to work.
    Mr. Valenzuela. Let me sign one of them for you.
    Mr. Rivera. Thank you very much.
    With regard to the Colombia FTA and the unresolved issues, 
that is also something that I would ask if you could try to get 
us members more specifics on that, and particularly because I 
think there are many members that are working on that issue, 
and they shouldn't be wasting their time, if they are.
    If there is someone who knows--you said you didn't have the 
specific metrics, and you said you couldn't say exactly what 
those unresolved issues are. I am wondering if there is someone 
else who has the specific metrics or can say exactly what the 
issues are, because I am one of the freshmen out of many that 
has been assigned a task of whipping other freshmen, discussing 
this issue, with the prospect of bringing that Free Trade 
Agreement to fruition. Is there someone else that can give us 
that information?
    Mr. Valenzuela. Let us continue to talk about it, because I 
really would like to be able to be responsive to you on this.
    Mr. Rivera. We will do that, and that was my next question. 
If you and I could get together perhaps privately, I would love 
to meet with you. I think it could be the beginning of a 
beautiful friendship, as Humphrey Bogart said.
    Just one more moment, with your indulgence, Mr. Chairman. 
When I was in graduate school, I really did read several of 
your books. My professor, who I believe you know, Dr. Eduardo--
--
    Mr. Valenzuela. I know him very well.
    Mr. Rivera. You know him very well. He spoke always very 
highly of you. And there are many elements in your writings 
that I would love to engage in a colloquy with you, 
particularly as they are relevant to U.S.-Cuba relations.
    Mr. Valenzuela. Excellent. Thanks very much.
    Mr. Mack. Thank you.
    I thank the gentleman from Florida.
    I also thank you, Mr. Valenzuela. We appreciate your time 
and your patience and your determination to stay and answer 
questions. And I look forward to continuing the dialogue. As 
you can see on both sides of the aisle, there are a lot of 
concerns about if and what our foreign policy is in Latin 
America. And I think we laid out a lot of questions to you, and 
hopefully we can expect that you would get back to the 
committee on a lot of those answers.
    And if I could just leave you with this, that I think you 
have a United States Congress who is begging for you, State 
Department and the President to send the Free Trade Agreements 
to the Congress so we can pass them, show our support not only 
for American workers, but also for our friends in last America.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Mack statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Mack QFRs deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
[Note: Responses to the above questions were not received prior to 
printing.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
